                                              NATIONAL SCIENCE FOUNZAT!CN
                                                    4201 WILSON BOULEVARD
                                                   ARLINGTON, VIRGINIA 22230




                OFFICE OF
            INSPECTOR GENERAL



              MEMORANDUM

              DATE: June 25,1996
    /   -                            --   -                 ._          -_                -
    i          0: Case #I96040022
    i
              FROM:-
i
I             RE: close-out o

                     On or about April 1, 1996, the OIG received an allegation )-orf               a
             public school teacher nh-iat                 an organization with an NSF grant, had not
             thus far, performed its obligations under the grant. According t m N S F grantee,
                                               n   r. I. ..
                                                        r          r
                                                                 -was                supposed to produce
             several math teaching units to be used by teachers in 21 schools in and a r o u m
                   When I spoke w i t h n April 18, 1996, the schools had received four (4)
             teaching units out of the seven (7) that were listed in the NSF p r ~ ~ o s a l ~ x p l a i n e d
             that only 7 weeks of school remained and he was concerned th-was                not
             meeting its obligations under the NSF grant.

                     The NSF grant t o l )                         ) for            was awarded on
              January           and is scheduled to expire on May             .            allegation, he
              was sure that the writers hired to produce the teaching units under the grant had already
              been paid for completing all of the units that the schools had not yet received.

                      We determined that by the end of the school year, all seven of the teaching units
              had been produced by-writers               as proposed under the                   told me that
              the teaching units produced by the end of the year were not as well &itten as those that
              were produced towards the beginning of the project. We determined that this was a
              concern for the IVSF program that granted the award. We found no evidence of fraud or
              mismanagement of grant funds. The only substantive problem, namely, that the units were
              not produced in a timely fashion according ot,            and that the units were not of good
              quality is clearly an issue to be addressed to NSF's Division of
                                              At this time this investigation is closed.
